      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




May 5, 2010

TO:           Marilyn Tavenner
              Acting Administrator and Chief Operating Officer
              Centers for Medicare & Medicaid Services


FROM:         Daniel R. Levinson
              Inspector General


SUBJECT:      Oversight and Evaluation of the Fiscal Year 2007 Payment Error Rate
              Measurement Program (A-06-08-00078)


The attached final report provides the results of our oversight and evaluation of the fiscal year
(FY) 2007 Payment Error Rate Measurement (PERM) program. The Centers for Medicare &
Medicaid Services (CMS) developed the PERM program to comply with the Improper Payments
Information Act of 2002, P.L. No. 107-300, and Office of Management and Budget requirements
for measuring improper Medicaid program and State Children’s Health Insurance Program
(SCHIP, now known as CHIP) payments. CMS’s PERM program measures improper payments
made in the fee-for-service, managed care, and eligibility components of Medicaid and SCHIP in
FY 2007 and future years.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Joseph J. Green, Assistant Inspector General for Financial
Management and Regional Operations, at (202) 619-1157 or through email at
Joe.Green@oig.hhs.gov. Please refer to report number A-06-08-00078 in all correspondence.


Attachment
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




OVERSIGHT AND EVALUATION OF THE
FISCAL YEAR 2007 PAYMENT ERROR
  RATE MEASUREMENT PROGRAM




                        Daniel R. Levinson
                         Inspector General

                            May 2010
                          A-06-08-00078
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Improper Payments Information Act of 2002 (IPIA) requires the head of a Federal agency
with any program or activity that may be susceptible to significant improper payments to report
to Congress the agency’s estimates of the improper payments. In addition, for any program or
activity with estimated improper payments exceeding $10 million, the agency must report to
Congress the actions that the agency is taking to reduce those payments. Section 2(f) of the IPIA
requires the Director of the Office of Management and Budget (OMB) to prescribe guidance on
implementing IPIA requirements.

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid program and State Children’s Health Insurance Program (SCHIP, now
known as CHIP) payments. CMS’s PERM program measures improper payments made in the
fee-for-service (FFS), managed care, and eligibility components of Medicaid and SCHIP in fiscal
year (FY) 2007 and future years.

Three contractors were responsible for operating the FY 2007 PERM program: a statistical
contractor, a documentation/database contractor, and a review contractor.

OBJECTIVE

Our objective was to determine whether the PERM program produced a reasonable estimate of
improper FY 2007 FFS and managed care payments for both Medicaid and SCHIP.

SUMMARY OF FINDINGS

We were unable to determine whether the PERM program produced a reasonable estimate of
improper FY 2007 FFS and managed care payments for both Medicaid and SCHIP for the
following reasons:

      The statistical contractor sampled payments from State universes that were or may have
       been incomplete or inaccurate.

      The estimate of improper payments for SCHIP did not meet the required precision levels.

      CMS did not review States’ repricing of the payment amounts for claims found to be
       partially in error.




                                                i
RECOMMENDATIONS

We recommend that CMS:

      continue to work with the States, CMS Regional Offices, and the statistical contractor on
       reconciling the PERM universes to State financial reports;
      work with OMB to establish new precision-level requirements for PERM;

      request the States to verify the accuracy of all repriced claims and submit documentation
       supporting the repricing; and

      test repriced claims for accuracy.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its comments on our draft report, CMS agreed with our recommendations and proposed
corrective actions. CMS’s comments are included in their entirety as Appendix E.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

       BACKGROUND ................................................................................................................1
           Improper Payments Information Act of 2002.........................................................1
           Improper Payments Information Act of 2002 Implementation Guidance ..............1
           Payment Error Rate Measurement Program ...........................................................1
           Payment Error Rate Measurement Program Process ..............................................2
           Waiver on Selection of States .................................................................................2
           State Financial Reporting Requirements ................................................................3
           Precision-Level Requirements ................................................................................3
           Repricing Instructions.............................................................................................3

       OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................3
            Objective .................................................................................................................3
            Scope.......................................................................................................................4
            Methodology ...........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

       UNIVERSES WERE OR MAY HAVE BEEN INCOMPLETE OR INACCURATE ......5
            State One.................................................................................................................6
            State Two ................................................................................................................7
            State Three ..............................................................................................................7
            State Four ...............................................................................................................7

       PRECISION LEVELS NOT MET FOR THE STATE CHILDREN’S HEALTH
       INSURANCE PROGRAM.................................................................................................8

       INADEQUATE CLAIMS REPRICING CONTROLS ......................................................8

       RECOMMENDATIONS....................................................................................................9

       CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS .......................9

APPENDIXES

       A: STATE ONE RECONCILIATION

       B: STATE TWO RECONCILIATION

       C: STATE THREE RECONCILIATION




                                                                    iii
D: STATE FOUR RECONCILIATION

E: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                               iv
                                              INTRODUCTION

BACKGROUND

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 (IPIA), P.L. No. 107-300, requires the head of
a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimates of the improper payments. In addition,
for any program activity with estimated improper payments exceeding $10 million, the agency
must report to Congress the actions that the agency is taking to reduce those payments. Pursuant
to section 2(f) of the IPIA, the Director of the Office of Management and Budget (OMB) must
prescribe guidance on implementing IPIA requirements.

Improper Payments Information Act of 2002 Implementation Guidance

Unless a written waiver is obtained from OMB, OMB Circular A-123, Appendix C, requires an
agency to:

        Review all programs and activities and identify those which are susceptible to
        significant erroneous payments. ... Obtain a statistically valid estimate of the
        annual amount of improper payments in programs and activities. ... Implement a
        plan to reduce the erroneous payments. ... [and] Report estimates of the annual
        amount of improper payments in programs and activities and progress in reducing
        them.

In its Implementation Guidance, OMB identified the Medicaid program and the State Children’s
Health Insurance Program (SCHIP) 1 as programs at risk for significant erroneous payments.
OMB requires the Department of Health & Human Services (HHS) to report the estimated
amount of improper payments for each program annually in its accountability report. For
example, the fiscal year (FY) 2007 Medicaid and SCHIP improper payments totaled
$18.6 billion and $0.8 billion (Federal share), respectively, and were reported in the HHS
FY 2008 Agency Financial Report, dated November 17, 2008.

Payment Error Rate Measurement Program

The Centers for Medicare & Medicaid Services (CMS) developed the Payment Error Rate
Measurement (PERM) program to comply with IPIA and OMB requirements for measuring
improper Medicaid and SCHIP payments. 2 CMS’s current PERM program measures improper

1
  On February 4, 2009, this program was renamed the Children’s Health Insurance Program. Because our findings
relate to FY 2007, we use the SCHIP name throughout the report.
2
 CMS issued the following rules to implement its PERM program: proposed rule, 69 Fed. Reg. 52620 (Aug. 27,
2004); interim final rule with comment period, 70 Fed. Reg. 58260 (Oct. 5, 2005); second interim final rule with
comment period, 71 Fed. Reg. 51050 (Aug. 28, 2006); and final rule, 72 Fed. Reg. 50490 (Aug. 31, 2007) (as
codified at 42 CFR §§ 431.950–431.1002).



                                                         1
payments made in the fee-for-service (FFS), managed care, and eligibility components of
Medicaid and SCHIP in FY 2007 and future years.

Payment Error Rate Measurement Program Process

For PERM, Medicaid and SCHIP are divided into three different components: FFS, managed
care, and eligibility. Each component has separate universes, samples, and error estimates. The
States are responsible for compiling the Medicaid and SCHIP claims universes on a quarterly
basis and the eligibility universes on a monthly basis. CMS requires States to submit quarterly to
the statistical contractor one universe each for FFS and managed care. The statistical contractor
selects a sample from each of the quarterly universes. The FFS sample size is 500 claims per
year per State, and the managed care sample size is 250 claims per year per State. CMS also
requires each State to select a sample of Medicaid and SCHIP eligibility case files to determine
whether they were correctly approved or denied. The eligibility sample is split between eligible
case files (504) and ineligible case files (204).

CMS used three contractors for the FY 2007 PERM program: a statistical contractor, a
documentation/database contractor, and a review contractor. The statistical contractor was
responsible for selecting 17 sampled States, 3 collecting and stratifying State universe
information, 4 selecting quarterly samples of claims 5 for each of the 17 States, calculating the
estimated amount of State and national Medicaid and SCHIP improper payments, and writing the
final PERM report for CMS. The documentation/database contractor was responsible for
receiving the claim information from the States, requesting State Medicaid policies, and
requesting medical records from providers. The review contractor was responsible for using the
policies and medical records obtained by the documentation/database contractor to perform
medical and data processing reviews, resolving differences in State and review contractor
determinations, working with States to determine new payment amounts (to reprice) for claims
partially in error, providing determinations to the statistical contractor, and assisting the
statistical contractor in writing the final PERM report.

Waiver on Selection of States

Pursuant to OMB Circular A-123, Appendix C, an agency is required to develop a statistically
valid estimate of erroneous payments unless OMB grants specific written approval (i.e., a
waiver). CMS obtained a waiver from OMB allowing CMS to use an alternate sampling
methodology that would allow every State to participate in the PERM program only once over a
3-year period, resulting in 17 States participating in the PERM program every year.



3
    The “States” include all 50 States and the District of Columbia.
4
 In this report, we use the term “State universe” to refer to all of the claim information from which a State’s samples
were selected.
5
  The PERM sampling unit is the lowest separately priced unit on a beneficiary-specific claim. This is typically a
line item. However, for some types of claims, such as those representing diagnostic-related groups, the lowest
separately priced item is the claim itself. We refer to the sampling unit as a “claim” in this report.


                                                            2
State Financial Reporting Requirements

The CMS State Medicaid Manual, section 2500, requires that the amounts reported on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program (Form
CMS-64) be actual expenditures and be in readily reviewable form. The information for Form
CMS-64 expenditures is obtained from invoices, cost reports, eligibility records, and other
sources. States should not claim estimated expenditure amounts on the Form CMS-64. CMS
guidance on the Quarterly State Children’s Health Insurance Program Statement of Expenditures
for Title XXI (Form CMS-21) is the same as for Form CMS-64.

In our review of the FY 2006 PERM program, we found that the Medicaid FFS universes from
four States for one quarter did not reconcile to the Form CMS-64. In the PERM FFY 2009
Universe Data Submission Instructions, CMS is requiring States to compare their quarterly
PERM universes to Forms CMS-64 and CMS-21 from the two previous quarters to ensure that
all applicable programs from all necessary data sources are included in their PERM universes.
CMS is also requiring the statistical contractor to reconcile each State’s quarterly universe to that
quarter’s Forms CMS-64 and CMS-21. If the reconciliation results in a variance of more than
15 percent, the statistical contractor will have to follow up with the State. After universe
submissions are complete, the statistical contractor will follow up with the CMS Regional Offices
and the States to account for variances between PERM universes and Forms CMS-64 and CMS-21 of
more than 5 percent.

Precision-Level Requirements

OMB Circular A-123, Appendix C, states that Federal agencies must produce a statistically valid
error estimate that meets precision levels of plus or minus 2.5 percentage points with a
90-percent confidence interval or plus or minus 3 percentage points with a 95-percent confidence
interval. In the CMS-issued Federal Register, 72 Fed. Reg. 50490, 50495 (Aug. 31, 2007), the
national error estimate should meet precision levels of plus or minus 2.5 percentage points with a
90-percent confidence interval, and the State error estimates should meet precision levels of plus
or minus 3 percentage points with a 95-percent confidence interval.

Repricing Instructions

The review contractor statement of work requires the review contractor to acquire the fee
schedules from the States for claims determined to be in error for less than the full amount or
request that each State reprice the errors. If the State fails to provide repricing information, the
review contractor is to count the claim as 100 percent in error.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the PERM program produced a reasonable estimate of
improper FY 2007 FFS and managed care payments for both Medicaid and SCHIP.



                                                  3
Scope

We reviewed the methodology that the statistical contractor used to select the sampled States and
claims and estimate the annual amount of improper payments. We also reviewed the accuracy of
four States’ universes.

We selected our judgmental sample of 170 claims from all of the claims that the statistical
contractor sampled during FY 2007.

We attempted to verify the pricing on all claims that the States were asked to reprice.

We did not review the overall internal control structure of the PERM contractors, the States, or
CMS, nor did we independently verify the error rate calculation.

We performed fieldwork at The Lewin Group (the statistical contractor), in Falls Church,
Virginia; Livanta, LLC (the documentation/database contractor), in Annapolis Junction,
Maryland; and HealthDataInsights, Inc. (the review contractor), in Las Vegas, Nevada. We also
visited the California Department of Health Care Services in Sacramento, California; California
Managed Risk Medical Insurance Board in Sacramento, California; South Carolina Department
of Health and Human Services in Columbia, South Carolina; Rhode Island Department of
Human Services in Cranston, Rhode Island; and Bureau of TennCare in Nashville, Tennessee.

Methodology

To accomplish our objectives, we:

       met with CMS officials and PERM contractors to obtain an understanding of the PERM
        process;

       selected a judgmental sample of 170 claims (10 claims from each of the 17 States the
        statistical contractor sampled) and traced the sampled claims through the PERM process
        (statistical sampling, medical record request, medical review, and error estimate
        calculation);

       performed limited testing and analysis of the PERM sampling and estimation
        methodology, medical records request process, and medical review process;

       met with officials from four judgmentally selected States to obtain an understanding of
        the PERM process at the State level;

       attempted to reconcile the four selected States’ Forms CMS-64 and CMS-21 to their State
        universes;




                                                 4
        attempted to verify the pricing on 71 claims that the review contractor asked the States
         associated with the claims to reprice by obtaining each State’s fee schedules and pricing
         methodology; and

        reviewed the precision levels of the estimates of improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

We were unable to determine whether the PERM program produced a reasonable estimate of
improper FY 2007 FFS and managed care payments for both Medicaid and SCHIP because:

        The statistical contractor sampled payments from State universes that were or may have
         been incomplete or inaccurate.

        The estimate of improper payments for SCHIP did not meet the required precision levels.

        CMS did not review the States’ repricing actions.

UNIVERSES WERE OR MAY HAVE BEEN INCOMPLETE OR INACCURATE

The statistical contractor selected samples of paid claims from State paid-claims universes that
may not have been complete and accurate. The PERM program did not require the statistical
contractor or the States to reconcile the State universes of adjudicated claims to any financial
reports. Likewise, the statistical contractor’s quality assurance procedures did not require
reconciling the State universes to financial reports. Therefore, CMS had no assurance that the
State universes were complete and accurate.

The statistical contractor provided instructions to the States regarding which payments to include
in their State universes. According to a CMS-approved letter from the statistical contractor to
State health officials providing claims data submission instructions for the FY 2007 PERM
program, the PERM universe 6 should have consisted of all adjudicated Medicaid and SCHIP
FFS and managed care claims that were originally paid or denied payment from October 1, 2006,
through September 30, 2007, and that involved Federal financial participation. If States followed
all guidance correctly, the PERM universe should have contained all Medicaid and SCHIP FFS
and managed care payments, including those processed outside the States’ payment systems.
Each PERM universe should have included claims for which the States had no additional


6
  For this report, we use the term “PERM universe” to refer to all claim information from all States to be sampled in
a specific time period.



                                                          5
payment liability because, for example, a third party was liable or a Medicare or SCHIP payment
exceeded the States’ allowable charges.

Because we were not able to reconcile the State universes from the four States to their Forms
CMS-64 or CMS-21, we could not determine whether all required claims had been included in
the State universes. A discussion of the reconciliation of the four States’ FFS and managed care
universes follows.

State One

Managed Care Universes

State One’s managed care system did not maintain beneficiary-specific payment records in its
payment system. As a result, State officials created pseudo managed care universes to review
the State’s managed care payments (for PERM purposes only). Officials created the pseudo
universes by:

       accessing monthly copies of the Medicaid and SCHIP eligibility system, archived on the
        15th of each month;

       identifying the individuals who were in the eligibility system on the 15th of that month
        and enrolled in a health maintenance organization (HMO) and determining what their rate
        categories were; and

       creating a pseudo payment record for each HMO member-month with the data fields
        required for the PERM managed care universes.

We were able to reconcile the universes of claims for the first and fourth quarters of the FY 2007
SCHIP managed care stand-alone program to the State’s Forms CMS-21 data. 7 However, we
were unable to reconcile the State’s pseudo Medicaid and SCHIP expansion program managed
care claim universes for the first and fourth quarters of FY 2007 to the State’s Forms CMS-64
and CMS-21. Although we discussed our attempted reconciliation with State officials and they
provided additional information, we still were unable to reconcile the State’s Forms CMS-64 and
CMS-21 to the PERM universes. The differences we identified during the reconciliation process
are shown in Appendix A.

Because we were unable to reconcile the pseudo managed care universes to the Forms CMS-64
and CMS-21 data, we were not able to determine whether the State’s pseudo managed care
universes were complete and accurate.




7
  When developing its SCHIP program, each State has the option of making SCHIP part of Medicaid expansion
program, a separate program, or a combination of both. State One chose a combined approach in which it expanded
its Medicaid program and contracted with a third party to manage part of SCHIP.


                                                       6
Fee-for-Service Universes

We were not able to reconcile the State’s first- and fourth-quarter FFS universes to the Forms
CMS-64 and CMS-21 data. Although we discussed our reconciliation with State officials and
they provided additional information, we still were unable to reconcile the State’s Forms
CMS-64 and CMS-21 data to its FFS universes. The differences we identified during the
reconciliation process are shown in Appendix A.

State Two

We were not able to reconcile State Two’s first- and fourth-quarter State Medicaid universes to
its Forms CMS-64 data. 8 Because we were unable to reconcile the Form CMS-64 data to the
State universes, we discussed our reconciliation with State officials. Although the State provided
additional information, we still were unable to reconcile the State’s Form CMS-64 data to its
universes. The differences we identified during the reconciliation attempt are shown in
Appendix B.

State officials informed us that they had problems with their managed care claims system. The
system was originally designed only for FFS claims but was modified to handle managed care
claims. As a result, the original FFS edits incorrectly voided managed care claims with errors.
When a claim was voided, a new claim was or should have been submitted; however, nothing on
the new claim tied it to the voided claim. This process resulted in three claims: the original
claim, the voided claim, and the resubmission. Both the original claim and the resubmission
were included in the PERM universe. As a result, the PERM universe may have been overstated.
State officials could not provide any information on why the FFS universe did not reconcile.

State Three

We were not able to reconcile State Three’s first- and fourth-quarter universes to the Forms
CMS-64 and CMS-21 data. The State informed us that the first quarter Medicaid and SCHIP
universes would have to be combined for both managed care and FFS to reconcile to the Forms
CMS-64 and CMS-21 data. During the reconciliation process, we found that some of the claims
paid only with State funds, which should not have been included in the universe, were included
in the first- and fourth-quarter universes. In addition, some claims that were paid with Federal
funds and should have been included in the universe were excluded. We informed the statistical
contractor, which determined that none of the claims paid only with State funds had been
sampled and said that it would adjust the universes by removing these claims. The statistical
contractor also determined that the claims excluded from the universes were not statistically
significant and said that it would not take any actions to account for them. The differences we
identified during the reconciliation process are shown in Appendix C.

State Four

We were able to reconcile State Four’s first- and fourth-quarter Medicaid and SCHIP combined
universes to the Forms CMS-64 and CMS-21 data, but we were unable to reconcile the Forms
8
    State Two’s SCHIP program was exempt from the PERM because 2007 was the SCHIP program’s first year.


                                                       7
CMS-64 and CMS-21 data to the State’s four individual component universes. (Because of the
method the State used to maintain accounting records and financial reports, we were unable to
determine which amounts were Medicaid and which were SCHIP.) We discussed our
reconciliation with the State, and although the State provided additional information, we still
were unable to determine how the State obtained the individual universes for each component.
The differences we identified during the reconciliation process are shown in Appendix D.

PRECISION LEVELS NOT MET FOR THE STATE CHILDREN’S HEALTH
INSURANCE PROGRAM

The PERM program’s estimate of improper FY 2007 SCHIP payments did not meet the
OMB-required precision level of plus or minus 2.5 percentage points at the 90-percent
confidence interval or plus or minus 3 percentage points at the 95-percent confidence interval.
The national SCHIP error rate was plus or minus 11.7 percentage points at 90-percent
confidence.

CMS and the statistical contractor developed sample sizes that were intended to meet the
OMB-required precision level of plus or minus 2.5 percentage points with a 90-percent
confidence interval assuming a 7- to 8-percent error rate based on results from the PERM pilot.
The overall error rates were substantially greater than anticipated, thus preventing CMS from
meeting the IPIA precision requirements. The variation in the eligibility component of the
SCHIP error rate across States was the predominant reason why the combined national error rate
did not meet IPIA precision-level requirements. By including as errors cases for which States
could not determine beneficiary eligibility, CMS found that some States had eligibility error rates
of well over 10 percent while other States had error rates of under 5 percent. The substantial
variation among the States with respect to their eligibility error rates directly affected the
precision of the error rate. This result may indicate a need to adjust precision-level requirements
for the SCHIP portion of the PERM review and to increase oversight of and outreach to the
States with regard to eligibility verification procedures and handling undetermined cases in
SCHIP.

INADEQUATE CLAIMS REPRICING CONTROLS

CMS did not establish adequate controls to verify the accuracy of the States’ repricing of claims
that the review contractor determined to be partially in error. When the review contractor
reviewed a claim, it determined that the claim had no error, had a partial error, or was completely
in error. The review contractor sent claims with partial errors to the States for repricing to
determine the amount in error. Of the 71 claims that had partial errors and were submitted to the
States for repricing, we found the following:

      We identified 10 claims for which we disagreed with the States’ repricing. We used the
       States’ fee schedules and repricing methodology and determined that the States’ repricing
       was incorrect.




                                                8
      We were unable to verify the repricing amounts for 27 claims because the States either
       did not respond to our multiple requests for support for the repriced amounts or provided
       incorrect information.

      We identified two claims that did not need repricing, per the review contractor’s review
       manual, and should not have been sent to the States.

      We verified that the remaining 32 claims were correctly repriced.

The review contractor’s statement of work did not require verification of the accuracy of repriced
claims, and the contractor did not assume the responsibility for such verification. Thus, the
PERM program did not include sufficient internal controls to ensure the accuracy of repriced
claims. CMS told us that they are considering requesting that States verify the accuracy of the
repriced claims and submit documentation supporting the repricing. Under this plan, CMS will
test repriced claims for accuracy. We agree and support CMS’s efforts in taking this action.

Because we were unable to verify the repricing on all claims, we did not have enough
information to determine the extent to which incorrect repricing affected the FY 2007 error rate
estimate.

RECOMMENDATIONS

We recommend that CMS:

      continue to work with the States, CMS Regional Offices, and the statistical contractor on
       reconciling the PERM universes to State financial reports;

      work with OMB to establish new precision-level requirements for PERM;

      request that the States verify the accuracy of all repriced claims and submit
       documentation supporting the repricing; and

      test repriced claims for accuracy.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In its comments on our draft report, CMS agreed with our recommendations and proposed
corrective actions. CMS’s comments are included in their entirety as Appendix E.




                                                9
APPENDIXES
                             APPENDIX A: STATE ONE RECONCILIATION

           Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                       and on Forms CMS-64 and CMS-21 for Fiscal Year 2007
                  Medicaid         Medicaid          SCHIP           SCHIP             SCHIP            SCHIP
                Managed Care     Managed Care       Managed       Managed Care     Managed Care     Managed Care
                 1st Quarter      4th Quarter          Care        (Expansion)     (Stand-Alone)    (Stand-Alone)
                                                   (Expansion)     4th Quarter      1st Quarter      4th Quarter
                                                   1st Quarter
State
universe        $1,448,771,326   $1,420,127,478    $18,931,146     $22,382,705      $153,165,557    $185,690,490
Forms CMS-
64 and
CMS-21
amounts         $1,313,701,427   $1,506,585,807    $24,808,695     $32,421,040      $153,165,557    $185,274,370
Difference        $135,069,899     ($86,458,329)   ($5,877,549)   ($10,038,335)                $0       $416,120
Difference as
a percentage
of Forms
CMS-64 and
CMS-21
amounts             10.3%            (5.7%)          (23.7%)          (31%)              0%            0.22%

          Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                         and on Forms CMS-64 and CMS-21 for Fiscal Year 2007
                         Medicaid FFS    Medicaid FFS       SCHIP FFS        SCHIP FFS
                          1st Quarter     4th Quarter        1st Quarter      4thQuarter
          State
          universe       $5,933,702,920  $6,161,779,411     $146,683,983     $145,894,937
          Forms CMS-
          64 and
          CMS-21
          amounts        $4,954,541,697  $5,608,528,863     $112,386,994     $121,486,956
          Difference       $979,161,223    $553,250,548      $34,296,989      $24,407,981
          Difference
          as a
          percentage
          of Forms
          CMS-64 and
          CMS-21
          amounts            19.8%            9.9%              30.5%            20.1%

        CMS = Centers for Medicare & Medicaid Services
        SCHIP = State Children’s Health Insurance Program (known as CHIP as of February 4, 2009)
        FFS = fee-for-service
                 APPENDIX B: STATE TWO RECONCILIATION

Managed Care Amounts Reported for the Payment Error Rate Measurement Program
                 and on Form CMS-64 for Fiscal Year 2007

                                       Medicaid Managed    Medicaid Managed
                                       Care 1st Quarter    Care 4th Quarter
 State universe                           $96,354,973        $304,369,138
 Form CMS-64 amount                      $100,980,522        $299,153,998
 Difference                               ($4,625,549)         $5,215,140
 Difference as a percentage of
 Form CMS-64 amount                         (4.6%)              1.7%


Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                    and on Form CMS-64 for Fiscal Year 2007

                                          Medicaid FFS      Medicaid FFS
                                           1st Quarter       4th Quarter
  State universe                          $1,278,251,726    $1,101,022,636
  Form CMS-64 amount                      $1,528,386,013    $1,413,054,439
  Difference                              ($250,134,287)    ($312,031,803)
  Difference as a percentage of Form
  CMS-64 amount                              (16.4%)           (22.1%)
                  APPENDIX C: STATE THREE RECONCILIATION

  Managed Care Amounts Reported for the Payment Error Rate Measurement Program
              and on Forms CMS-64 and CMS-21 for Fiscal Year 2007

                        Medicaid and SCHIP         Medicaid             SCHIP
                          Managed Care           Managed Care        Managed Care
                            1st Quarter           4th Quarter         4th Quarter
     State universe         $37,427,111           $43,161,304          $1,450,151
     Forms CMS-64
     and CMS-21
     amounts                 $40,743,257           $39,431,446         $1,577,489
     Difference              ($3,316,146)           $3,729,858         ($127,338)
     Difference as a
     percentage of
     Forms CMS-64
     and CMS-21
     amounts                    (8.1%)                9.5%               (8.1%)


 Fee-for-Service Amounts Reported for the Payment Error Rate Measurement Program
                and on Forms CMS-64 and CMS-21 for Fiscal Year 2007

                        Medicaid and SCHIP
                                FFS               Medicaid FFS         SCHIP FFS
                            1st Quarter           4th Quarter          4th Quarter
     State universe        $814,330,420           $762,690,995          $8,609,467
     Forms CMS-64
     and CMS-21
     amounts                 $815,637,866          $749,961,300         $7,873,030
     Difference               ($1,307,446)          $12,729,695          $736,467
     Difference as a
     percentage of
     Forms CMS-64
     and CMS-21
     amounts                    (0.2%)                 1.7%                9.4%


The State informed us that the first-quarter Medicaid and SCHIP universes would have to be
combined for both managed care and FFS to reconcile to the Forms CMS-64 and CMS-21 data.
                   APPENDIX D: STATE FOUR RECONCILIATION

              Fee-for-Service and Managed Care Amounts Reported for the
                       Payment Error Rate Measurement Program
                and on Forms CMS-64 and CMS-21 for Fiscal Year 2007

                                                  1st Quarter          4th Quarter
     State universe                              $380,756,047          $398,314,534
     Forms CMS-64 and CMS-21 amounts             $398,379,016          $400,727,823
     Difference                                  ($17,622,969)          ($2,413,289)
     Difference as a percentage of Forms
     CMS-64 and CMS-21 amounts                      (4.4%)                 (0.6%)

Because of the method the State used to maintain accounting records and financial reports, we
were unable to determine which amounts were Medicaid and which were SCHIP. Therefore, we
had to combine the Medicaid and SCHIP data into a single reconciliation.
                                                                                                                          Page l of3


APPENDIX E: CENTERS FOR MEDICAR E & MEDICAID SERVICES COMMENTS

     /."....,,"' ...

 (        ~	DEPA RTM ENT O F HEA LTH                    & HUMAN SERVICES
     .,~~
       ~. t 	                                                                                     I\dm ilrislrtltor
                                                                                                  Was/'ktgIon. DC 20201




                       DATE:           WAR 2 4 <IlIO
                       TO: 	          Daniel R. Levinson 

                                      Inspector General for Audit Services 


                       FROM:     C ~~.J--
                                     Acting Administrator

                       SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "Oversight and Evaluation of the
                                  Fiscal Year 2007 Payment Error Rate Measurement Progrnm" (A·06·0S.{)()()78)

                       Thank you for the opponunity to comment on the D IG draft report titled, " Oversight and
                       Evaluation of the Fiscal Year 2007 Payment Error Rate Measurement Program (PERM)" (A-06­
                       08-00(78). We appreciate the O[G 's review of the PERM program and ils recommendations for
                       program improvement. The Centers for Medicare & Medicaid Services (eMS) deve loped the
                       PERM program to comply with the Office of Management and Budget's (OMB) requirement to
                       measure improper payments in the Medicaid and State Children's Health Insurance Program
                       (CHIP) programs.

                       The CMS has made a number of improvements to the PERM program, including implementing a
                       two-step reconciliation process and requires more accountability from States. These efforts, in
                       combination with the 0 10'5 oversight and evaluation, provides eMS with vital feedback on
                       PERM methodology and protocols that strengthen the PERM measurement and provide tools to
                       help reduce the number and dollar amount of improper payments. These steps are enabling us
                       and the States to better focus corrective actions to reduce improper paymenls.

                       DIG Recommendation

                       We recommend thaI CMS continue to work with the Slates, eMS Regional Offices, and the
                       statistical contractor on reconciling the PERM universes to State financial reports.

                       e MS RHponse

                       The CMS concurs and has implemented reconcil iation methodologies beginning with the
                       FY 2009 measurement cycle. In order for the PERM measurement to be statistically valid,
                       samples must be drawn from framed universes of States' claims data that are complete and
                       accurate. Reconciling these universes with fOnTIS CMS·64 and CMS·21 is a way to ensure that
                       universes are complete lind accurate.
                                                                                                     Page 2 of3




Page 2 - Daniel R. Levinson


To implement this recommendation, CMS has implemented a two-stage reconciliation process,
as well as initiatives aimed at ensuring that State universe submissions are complete and
accurate. The two-stage reconciliation process compares States' quarterly universe data
submission to the financial reports, forms CMS-64 and CMS-21. In the first stage, we ask States
to compare their quarterly universe data submission to the previous two quarters of the financial
reports, forms CMS-64 and CMS-21. The previous two quarters of the forms CMS-64 and
CMS-21 are used because the PERM universe data submissions are required prior to the time
these reports are finalized. The first stage of this two-stage reconciliation allows States to
identify, prior to universe data submission, sources of incomplete or inaccurate universe data.
The second stage is a comparison, by the statistical contractor, of the current quarter's universe
data with the current quarter's forms CMS-64 and CMS-21. In both stages of reconciliation,
large differences between universe data and these reports are examined. We believe that this
two-stage reconciliation process is working well, as percentage differences between expenditures
and universe totals are uniformly in single digits. CMS intends to continue to refine and improve
this reconciliation process in subsequent PERM measurement cycles.

OIG Recommendation

We recommend that CMS work with OMB to establish new precision-level requirements for
PERM.

eMS Response

The CMS concurs and is currently seeking input from a variety of expert sources on
methodological and statistical revisions to possibly propose to OMB.

OIG Recommendation

We recommend that CMS request the States to verify the accuracy of all repriced claims and
submit documentation supporting the repricing.

eMS Response

The CMS concurs and, as explained in the following response, specifies the documentation
needed to support the repriced amount. The methodology outlined will allow CMS to verify the
accuracy of all repriced claims.

OIG Recommendation

We recommend that CMS test repriced claims for accuracy.

eMS Response

The CMS concurs and is implementing a testing methodology for repriced claims with the
FY 2009 measurement. Specifically States are asked to submit "screen shots" showing the
repriced payment amount. These screen shots will be sent to the review contractor. Senior data
                                                                                                                                                         Page 3 of3




Page 3 - Daniel R. Levinson


processing reviewers who have direct experience with the State's system will conduct the
evaluation of the accuracy of this screen shot testing. If deemed successful, CMS will
implement this methodology for all repriced claims in subsequent PERM cycles. CMS believes
this methodology will satisfy the previous recommendation made by the 010 to verify the
accuracy of repriced claims,




          ---. -~ -- - -- .- . -- ---------- . -   - - - - --   ------ -.--.- -..----   --- --~ --.---- - -   -----------------   - ---------- -   ---------   - --------   - -1
